Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Y2K Readiness of Managed Care
    Organizations as of July 1999




                   JUNE GIBBS BROWN
                    Inspector General

                      OCTOBER 1999
                      OEI-05-98-00591
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William C. Moran,
Regional Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                                  HEADQUARTERS

Thomas Komaniecki, Project Leader               Elise Stein, Program Specialist

Nora Leibowitz

Susan Otter



       To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

        To examine the current Year 2000 (Y2K) readiness of Medicare managed care
        organizations and provide follow-up information for the Health Care Financing
        Administration.


BACKGROUND

        The Y2K problem stems from the way computers have traditionally stored dates through
        the use of an “implied century.” To save computer storage space, programmers used only
        two digits, rather than four, in year date fields. The Health Care Financing Administration
        (HCFA) has made remedying the Y2K problem its number one priority.

        Some of the key computer systems at risk among healthcare providers that could affect
        the 7 million Medicare beneficiaries enrolled in managed care are: premium billing
        systems, medical information systems, member enrollment systems, member verification
        systems and provider payment systems. Failure of these systems to correctly process data
        could negatively impact access to care and service delivery.

        The Office of Inspector General (OIG) conducted an initial survey on Medicare managed
        care organizations (MCOs) in January and February of 1999. The results of this survey
        can be found in a report entitled Y2K Readiness of Managed Care Organizations, OEI-
        05-98-00590. The Congress and HCFA requested that we conduct a follow-up survey.
        The OIG also conducted surveys of various medical provider types. These results can be
        found in a report entitled Y2K Readiness of Medicare Providers, OEI-03-98-00250. The
        OIG also conducted follow-up surveys of these providers. The results of these surveys
        can be found in an OIG report entitled Y2K Readiness of Medicare Fee-for-Service
        Providers as of July 1999, OEI-03-98-00253.

        We received follow-up surveys from 161 MCO contracts in July and August of 1999. The
        data was self-reported by MCOs and was not verified. Not all MCOs were surveyed due
        to site visits by HCFA. The HCFA conducted 59 site visits representing 204 managed
        care plans. We have reviewed this data as a complement to the survey we conducted.




MCO Y2K Follow-up                                1                                    OEI-05-98-00591
FINDINGS

Over four-fifths of managed care organizations report that their systems are Y2K
compliant

        Overall, 85 percent of MCO respondents claim that they are currently Y2K ready.
        Approximately 9 percent of these MCOs have not yet completed testing their systems. An
        MCO is considered to have overall Y2K compliance if it reported that all applicable
        systems are Y2K ready. Ninety-four percent of MCOs report that vendor-supported
        products, such as hardware, telecommunications and embedded processors, are
        compliant. Almost all MCOs have established recommended infrastructures in preparation
        for Y2K testing but most have not contracted out for independent assessment of Y2K
        readiness.

About one-half indicate that they are taking steps toward ensuring compliance
with external partners

        Fifty-six percent of MCOs report receiving commitments from relevant data exchange
        partners to participate in end-to-end testing. Nine percent of MCOs felt such
        commitments were not applicable. Fifty percent of MCOs have tested exchanging data
        with their subcontractors’ systems, and 35 percent of MCOs have tested exchanging data
        with their medical providers’ systems.

Approximately 80 percent report developing contingency plans; about 30 percent
report testing their contingency plans

        Comparing the current survey to our previous study, we found an increase of 5 to 10
        percent of MCOs reporting that they have developed contingency plans related to specific
        computer systems. Currently, 83 percent of MCOs report developing a contingency
        strategy for their membership enrollment systems, and 79 percent of MCOs report
        developing a strategy for their premium billing systems. Seventy-three percent report
        developing a contingency plan for their medical information systems. As of July 1999, 28
        percent of MCOs report having tested contingency plans, compared to only 8 percent as
        of February 1999.

        The HCFA required MCOs to submit contingency plans for review. The contingency
        plans were reviewed for content and feasibility of implementation. Based on their analysis,
        HCFA determined that 33 percent of the contingency plans submitted as of August 1999
        required little or no modification, while 67 percent needed major or complete revision.




MCO Y2K Follow-up                                2                                    OEI-05-98-00591
AGENCY COMMENTS

        We received comments from the Health Care Financing Administration. Their comments
        are included as Appendix B. We appreciate HCFA’s cooperation in developing our
        survey and sharing the results of their on-site Y2K reviews of managed care organizations.
        We commend HCFA’s continued focus on readiness in light of the results of their on-site
        visits, their review of contingency plans, and our survey results.




MCO Y2K Follow-up                               3                                    OEI-05-98-00591
                        TABLE                        OF              CONTENTS

                                                                                                         PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         Internal Y2K Compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         External Partners Testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Contingency Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



APPENDIX


         Survey Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


         Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





MCO Y2K Follow-up                                                4                                                  OEI-05-98-00591
                            INTRODUCTION

Purpose

        To examine the current Year 2000 (Y2K) readiness of Medicare managed care
        organizations and provide follow-up information for the Health Care Financing
        Administration.

Background

        The Office of Inspector General (OIG) conducted a number of surveys examining the
        Year 2000 (Y2K) readiness of the health care industry. Among the areas of the health
        care industry surveyed by the OIG were Medicare managed care organizations (MCOs).
        The results of this survey can be found in a report entitled Y2K Readiness of Managed
        Care Organizations, OEI-05-98-00590. The Congress, along with the Health Care
        Financing Administration (HCFA), requested that we conduct a follow-up survey
        examining the current Y2K readiness of MCOs.

        The Y2K problem stems from the way computers have traditionally stored dates through
        the use of an “implied century.” To save memory and storage space, programmers have
        conventionally used only two digits, rather than four, in year date fields. When the
        calendar flips over to January 1, 2000, many computer systems will recognize the year
        “00" as 1900 and applications will either stop running or produce unpredictable results.
        Computer systems that are not “Y2K compliant” simply will not be able to recognize dates
        occurring after 1999 (e.g., “01" will be recognized as 1901 rather than 2001). These
        computer systems will not be able to process date and time sensitive data from one
        century into another or between centuries.

        Though perhaps not as complex or problematic as government program systems, MCOs
        are considered vulnerable to Y2K problems due to the myriad business systems they
        operate. These are systems that are crucial to the ongoing interface necessary to
        communicate with corporate and government payer sources and accounts-payable
        balances with physicians, hospitals, and other medical and non-medical providers and
        subcontractors.

        Some of the key computer systems at risk among healthcare providers that could affect
        the 7 million Medicare beneficiaries enrolled in managed care are: premium billing
        systems, medical information systems, member enrollment systems, member verification
        systems and provider payment systems. Failure of these systems to correctly process data
        could negatively impact beneficiary access to care, service delivery and efficient Medicare
        reimbursement.


MCO Y2K Follow-up                                5                                     OEI-05-98-00591
Meeting the Y2K Challenge

        The HCFA has made the Y2K initiative its number one priority and is committed to
        making sure that its date-sensitive systems and those of its business partners are ready to
        verify eligibility, enrollment, coverage and payment. The HCFA defines Y2K compliant
        as:

                ...information technology that accurately processes date/time data
                (including, but not limited to, calculating, comparing, and
                sequencing) from, into, and between the nineteenth, twentieth and
                twenty-first centuries, and the years 1999 and 2000 and leap year
                calculations. Furthermore, Year 2000 compliant information
                technology, when used in combination with other information
                technology, shall accurately process date/time data if the other
                information technology properly exchanges date/time data with it.

        Meeting the Y2K challenge requires identifying, renovating and testing all computer and

        information systems to assure the transition from a six-digit date (12/31/99) to an eight-

        digit date (12/31/1999) by January 1, 2000. Some examples of critical dates include:


        <       the date a beneficiary became eligible for Medicare, 

        <       the date a patient was admitted or discharged from a hospital, 

        <       the date a wheelchair rental began, and

        <       the date an enrollee entered a Medicare managed care plan. 


        A trouble-free transition into the new millennium is key to meeting the needs of Medicare

        beneficiaries and providers. At stake are efficient reimbursement and beneficiaries’ access

        to, and the timeliness and quality of, health care. The HCFA advises its contracting

        MCOs to review the Government Accounting Office (GAO) Assessment Guide as an aid

        to becoming Y2K compliant. The HCFA advocates using the following five proactive

        steps to identify and address potential impacts presented by the Year 2000 challenge: 


        1.	     Awareness - inventory all hardware and software systems on the potential Y2K
                impact.
        2.	     Assessment - determine the Y2K readiness of these systems for operation beyond
                12/31/99.
        3.	     Renovation - update or replace systems and software programs as needed to
                ensure operations will be Y2K ready.
        4.	     Testing - test existing and newly purchased systems and software to verify they
                work.
        5.	     Contingency Planning - develop business contingency plans for operations
                beyond 12/31/99, just in case something goes wrong.



MCO Y2K Follow-up                                 6                                     OEI-05-98-00591
Managed Care Organizations’ Millennium Compliance Responsibilities

        The HCFA has requested its managed care organizations make Y2K compliance a top
        priority. The HCFA has advised MCOs to assess the following business components:

        <       Applications (including cross-business applications and all external interfaces).
        <       Databases.
        <       Computer Infrastructure (including hardware, system software,
                telecommunications, and date dependent functions such as passwords, accounts
                and software licenses).
        <       Non-Information Technology Systems (including physical plant security, card entry
                systems, elevator systems, environmental control systems).

        In a Managed Care Millennium Compliance Letter dated September 17, 1998, HCFA
        delineates the following Year 2000 compliant responsibilities for its contracting MCOs:

        <	      Complying with the enrollment and payment data exchange processes requirements
                as outlined in HCFA’s Operational Policy Letter 98.068. (In essence, MCOs are
                to update all “date/time” fields in the record layouts of the Enrollment and
                Disenrollment Transaction and the Transaction Reply/Monthly Activity Report
                Data Format to record a four digit year.)
        <	      Clearly defining all internal and external systems and interfaces requiring
                compliance (membership systems, claims systems, medical record systems,
                pharmacy and lab systems, exchanges between delegated groups, etc.).
        <       Performing a thorough risk assessment.
        <       Identifying all involved parties and entities with whom data is exchanged and
                assuring that the defined requirements are clearly understood by these parties.
        <       Ensuring that providers, suppliers, and beneficiaries are aware of the Y2K
                compliant issues and problems that may arise.
        <       Communicating with trading partners with whom there is a data exchange to
                assure that they are taking the appropriate measures toward Y2K compliance.
        <       Developing implementation plans and testing schedules.
        <       Performing extensive testing.
        <       Developing an extensive contingency plan.

        In addition to the above responsibilities, HCFA requires MCOs to: (1) “...certify that
        they understand HCFA’s Y2K compliant definition and have tested all of their data
        systems/interfaces to ensure Y2K compliance,” and (2) “...have a contingency plan in
        place in the event that internal organization or key external business partner systems fail.”
        The HCFA required MCOs to certify their Y2K compliance by April 15, 1999.




MCO Y2K Follow-up                                 7                                      OEI-05-98-00591
Ongoing HCFA efforts

        In addition to having MCOs certify their Y2K compliance, HCFA is monitoring the
        contingency planning efforts of MCOs. The HCFA required all MCOs to submit their
        contingency plans to HCFA by July 15, 1999. The MCOs are also required to report on a
        monthly basis the status of validating their contingency plans.

        With the help of a technical support contractor, HCFA conducted 59 site reviews covering
        204 MCOs. From July through mid-September 1999, HCFA visited national managed
        care organizations and those organizations that have more than 50,000 enrolled Medicare
        beneficiaries. The HCFA also included a number of small plans as part of its site reviews.
        The site visits were conducted to evaluate the completeness of the planned Y2K
        preparations, associated schedules, quality control efforts, configuration management
        disciplines, renovations and contingency planning that pertain to the MCOs.

Other Office of Inspector General Work

        The Office of Inspector General has also conducted surveys of hospitals, nursing homes,
        home health agencies, durable medical equipment suppliers and physicians to examine the
        Y2K readiness of these providers. The results of these surveys can be found in an OIG
        report entitled Y2K Readiness of Medicare Providers, OEI-03-98-00250. The OIG also
        conducted follow-up surveys of these providers. The results of these surveys can be
        found in an OIG report entitled Y2K Readiness of Medicare Fee-for-Service Providers as
        of July 1999, OEI-03-98-00253.


METHODOLOGY

        The purpose of this inspection was to gather information from managed care organizations
        regarding their Y2K readiness. We developed our survey instrument in cooperation with
        the Health Care Financing Administration and timed our survey to coincide with HCFA’s
        site visits. Based on discussions with HCFA, we did not survey those MCOs scheduled
        for a site review by HCFA.

        The surveys were sent by overnight mail to the MCOs on June 28, 1999. We sent a
        postcard to the MCOs reminding them of our survey on July 12, 1999. Our deadline for
        returning the surveys was July 23, 1999. We contacted those MCOs that did not respond
        initially to our survey. We included surveys from all MCOs that responded before the end
        of the first week in August.

        We received a list of managed care contract numbers from HCFA. In addition, HCFA
        provided a list of MCOs scheduled for site review. We did not survey those MCOs



MCO Y2K Follow-up                               8                                    OEI-05-98-00591
        scheduled for a HCFA site review. After removing these MCOs, our list contained 235 MCOs.

        Nine contracts did not have sufficient information to be delivered through overnight mail.
        An additional 17 MCOs provided us with information that they were not renewing their
        Medicare contract for calender year 2000. We did not require these MCOs to respond to
        our survey. An additional 60 MCOs informed us that their plans were scheduled for a site
        visit by HCFA and therefore should not have received the survey. This left us expecting
        responses from 149 MCOs.

        We received responses from 161 MCOs. We received 144 surveys from the group of 149
        MCOs from whom we were expecting responses, a 97 percent response rate for this
        group. In addition, we received survey responses from 17 valid MCO contracts that were
        not on the original list provided by HCFA. In some cases, the responses were from MCOs
        with multiple contracts of which some were on the original list. In other cases, MCOs
        sent us survey responses based on information provided by the American Association of
        Health Plans through their web site which featured a copy of our survey. Using
        information from our previous MCO survey, we determined that 88 additional MCOs
        potentially should have been included in our June 28, 1999 mailing. The 88 additional
        MCOs, along with the 149 original expected responses, constitute the total population of
        MCOs not subject to HCFA site visits. Our study reflects the responses of 68 percent of
        these MCOs.

        We asked the MCOs whether they had conducted tests of their systems for Year 2000
        readiness. We allowed respondents to use their own definitions for testing based on
        industry standards.

        We have included, as Appendix A, a copy of the questionnaire that we used along with the
        overall survey results.

Scope

        The data analyzed in this report was furnished by MCOs and was not verified for
        accuracy. The survey did not measure the quality of MCOs’ testing or contingency plan
        development. This data represents only those MCOs that were surveyed and does not
        include MCOs that were scheduled for a site visit by HCFA. The HCFA conducted 59
        site visits representing 204 managed care plans. We have reviewed this data as a
        complement to the survey we conducted.

        We conducted our review in accordance with the Quality Standards for Inspections issued
        by the President’s Council on Integrity and Efficiency.




MCO Y2K Follow-up                               9                                     OEI-05-98-00591
                                   FINDINGS


Over four-fifths of managed care organizations report that all
of their systems are Y2K compliant
        Overall, 85 percent of MCO respondents claim that they are currently Y2K ready. About
        9 percent of these MCOs have not yet completed testing for their systems. An MCO is
        considered to have overall Y2K compliance if it reported that all applicable systems are
        Y2K ready. Our previous survey revealed that 22 percent of MCOs reported that their
        computer systems were Y2K ready. On average, 82 percent of MCOs reported Y2K
        compliance for individual computer systems. See Table 1 for more information.

        Table 1: Majority of MCOs Report Their Individual Computer Systems Y2K
        Compliant

                    Systems         Y2K Ready        Not Y2K Ready       Not Applicable
            Provider Payment            86%                6%                 3%
                Systems
           Member Enrollment            84%                7%                 3%
               Systems
             Premium Billing            83%                5%                 8%
                Systems
          Member Verification           81%                6%                 7%
              Systems
           Medical Information          75%                6%                 13%
                Systems
        OIG MCO Survey, 1999


Almost all MCOs respondents report having ensured that vendor-supported
systems are Y2K compliant

        Ninety-four percent of MCOs report that vendor-supported products, such as hardware,
        telecommunications and embedded processors, are compliant. Of those who reported
        ensuring vendor-supported products are compliant, 99 percent have established an
        inventory of vendor-supported products, 87 percent have obtained vendor Y2K



MCO Y2K Follow-up                              10                                   OEI-05-98-00591
        certifications, and 79 percent have taken steps to validate vendor’s claims of Y2K
        compliance.

Almost all MCOs report having established recommended infrastructures in
preparation for Y2K testing but most have not contracted out for independent
assessment of Y2K readiness

        Ninety-six percent have formally assigned Y2K responsibility to a single program or
        project office. Ninety-seven percent of MCOs have defined Y2K compliance. Ninety-
        three percent have developed an organizational Y2K test and evaluation master plan, and
        83 percent have established test facilities to allow Y2K testing. The GAO recommends
        that businesses set up these specific infrastructures to assist in Y2K compliance planning
        and testing.

        Only 35 percent have contracted with an outside organization for an “independent
        verification and validation” assessment of Y2K readiness. The HCFA strongly
        recommends MCOs follow this course of action to ensure Y2K compliance.



About one-half of managed care organizations indicate that
they are taking steps toward ensuring compliance with
external partners
        Fifty-six percent of MCOs report having received commitments from relevant data
        exchange partners to participate in end-to-end testing. Nine percent of MCOs felt such
        commitments were not applicable. Fifty percent of MCOs have tested exchanging data
        with their subcontractors’ systems and 35 percent of MCOs have tested exchanging data
        with their medical providers’ systems. Our previous study found that less than one quarter
        of MCOs had tested data exchanges with two thirds or more of these business partners.



Approximately 80 percent report developing contingency
plans; about 30 percent report testing their contingency
plans
        Comparing the current survey to our previous study, we found an increase of 5 to 10
        percent of MCOs reporting that they have developed contingency plans related to specific
        computer systems. On average, 78 percent of MCOs report developing contingency plans
        compared to an average of 71 percent previously. See Figure 1 for more information.




MCO Y2K Follow-up                               11                                     OEI-05-98-00591
        Figure 1: Contingency Plan Development: MCOs Report Progress




   OIG MCO Survey, 1999




        Currently, 28 percent of all MCO respondents report having tested contingency plans,
        compared to only 8 percent from the previous survey. According to HCFA and GAO,
        contingency planning and testing contingency plans are important aspects of every Year
        2000 conversion program.

        The HCFA required MCOs to submit contingency plans for review. The contingency
        plans were reviewed for content and feasibility of implementation. As of August 30, 1999,
        HCFA received 145 contingency plans representing 262 MCO contracts. Based on their
        analysis, HCFA determined that 33 percent of the contingency plans required little or no
        modification, while 67 percent needed major or complete revision.




MCO Y2K Follow-up                              12                                   OEI-05-98-00591
                      AGENCY COMMENTS

        We received comments from the Health Care Financing Administration. Their comments
        are included as Appendix B. We appreciate HCFA’s cooperation in developing our
        survey and sharing the results of their on-site Y2K reviews of managed care organizations.
        We commend HCFA’s continued focus on readiness in light of the results of their on-site
        visits, their review of contingency plans, and our survey results.




MCO Y2K Follow-up                               13                                   OEI-05-98-00591
                                                                                      APPENDIX A

      Medicare Managed Care Organization Year 2000 Survey
Testing Infrastructure                                                          Yes   No      Not     Unknown
                                                                                           Applicable

1.      Has your organization formally assigned Year 2000 test management
        authority and responsibility to a single program or project office?
                                                              N=161             96%   4%       0%       0%

2.	     Has your organization defined what Year 2000 compliance means?
        If No skip to Question 3, otherwise does the definition include the
        following items?
                                                              N=157             97%   3%       0%       0%

        A.       No value for current date will cause any interruption in
                 system operation.
                                                              N=146             93%   3%       1%       3%

        B.       Date-based system functionality must behave consistently
                 for dates prior to, during and after Year 2000.
                                                              N=148
                                                                                99%   0%       1%       1%

        C.       In all system interfaces and data storage areas, the century
                 in any date must be specified either explicitly or by
                 unambiguous algorithms.
                                                               N=146            94%   3%       1%       3%

        D.       Systems recognize Year 2000 as a leap year.

                                                               N=145            98%   1%       0%       1%

3.	     Has your organization developed an organizational Year 2000 test
        and evaluation master plan?
                                                           N=160                93%   6%       1%       0%

4.	     Has your organization established one or more test facilities that
        replicate the operating environment(s) to allow Year 2000 tests?
                                                             N=161
                                                                                83%   13%      3%       1%

5.	     Has your organization ensured that vendor-supported products (i.e.
        hardware, systems, software, telecommunications, and embedded
        processors) are compliant? If No skip to question 6, otherwise has
        your organization completed the following?
                                                             N=160              94%   6%       0%       0%




MCO Y2K Follow-up                                       14                                    OEI-05-98-00591
                                                                               Yes   No      Not     Unknown
                                                                                          Applicable

        A.	     Has an inventory of vendor-supported products been
                established?
                                                          N=149                99%   1%       0%       0%

        B.      Have vendor certifications been obtained?

                                                             N=149             87%   12%      0%       1%

        C.      Have steps been taken to validate vendor’s claims?

                                                             N=149             79%   20%      0%       1%

6.      Has your organization contracted with an outside organization for an
        “independent verification and validation” assessment of your
        organization’s Y2K readiness?
                                                             N=161             35%   62%      1%       1%

Computer Systems Testing
7.      Has your organization tested its enrollment system to ensure that it
        accurately processes date and time data (e.g. calculating, comparing
        and sequencing) for the years 1999 and 2000, and leap year
        calculations?
                                                               N=161           77%   20%      3%       0%

8.      Has your organization tested its membership verification system to
        ensure that it accurately processes date and time data (e.g.
        calculating, comparing and sequencing) for the years 1999 and
        2000, and leap year calculations?
                                                               N=161           76%   19%      5%       0%

9.      Has your organization tested its medical information systems to
        ensure that it accurately processes date and time data (e.g.
        calculating, comparing and sequencing) for the years 1999 and
        2000, and leap year calculations?
                                                               N=160           71%   17%      13%      0%

10.     Has your organization tested its premium billing systems to ensure
        that it accurately processes date and time data (e.g. calculating,
        comparing and sequencing) for the years 1999 and 2000, and leap
        year calculations?
                                                                N=160          76%   16%      8%       0%




MCO Y2K Follow-up                                      15                                    OEI-05-98-00591
                                                                              Yes   No      Not     Unknown
                                                                                         Applicable

11.	    Has your organization tested its provider payment systems to ensure
        that it accurately processes date and time data (e.g. calculating,
        comparing and sequencing) for the years 1999 and 2000, and leap
        year calculations?
                                                                N=161         78%   17%      4%       1%

12.	    Has your organization tested its appeal and grievance systems to
        ensure that it accurately processes date and time data (e.g.
        calculating, comparing and sequencing) for the years 1999 and
        2000, and leap year calculations?
                                                               N=160          59%   12%      27%      3%

13.     Is your organization’s member enrollment system Y2K compliant?
                                                          N=160
                                                                              84%   7%       3%       6%

14.     Is your organization’s member verification system Y2K compliant?
                                                            N=160
                                                                              81%   6%       7%       7%

15.     Is your organization’s medical information system Y2K compliant?
                                                           N=160
                                                                              75%   6%       13%      6%

16.     Is your organization’s premium billing system Y2K compliant?

                                                             N=160            83%   5%       8%       4%

17.     Is your organization’s provider payment system Y2K compliant?

                                                             N=160            86%   6%       3%       6%

18.     Is your organization’s appeal and grievance system Y2K compliant?
                                                            N=161
                                                                              67%   4%       25%      4%

19.	    Have your relevant data exchange partners committed to
        participating in end-to-end testing?
                                                           N=160              56%   24%      9%       11%




MCO Y2K Follow-up                                      16                                   OEI-05-98-00591
                                                                                 Yes   No      Not     Unknown
                                                                                            Applicable

20.	    Has your organization tested exchanging data between your system
        and your medical providers’ systems?
                                                           N=161                 35%   39%      25%      2%

21.	    Has your organization tested exchanging data between your system
        and your subcontractors’ systems?
                                                           N=161                 50%   30%      17%      2%

Contingency Plans
22.	    Have you developed a contingency strategy for dealing with potential
        Y2K-related problems associated with your:

        A.      membership enrollment/disenrollment systems?

                                                              N=159              83%   15%      3%       0%

        B.      medical information systems (e.g. patient files, utilization)?

                                                              N=160              73%   14%      13%      1%

        C.      premium billing systems?

                                                              N=160              79%   13%      8%       1%

        D.      provider payment systems?

                                                              N=160              81%   13%      6%       0%

        E.      member appeal/grievance systems?

                                                              N=161              67%   14%      18%      1%

23.     Have you tested your contingency plans?

                                                              N=159              28%   70%      2%       0%

Other Information
24.	    Will your organization require that your medical providers
        demonstrate that their systems are Y2K compliant?
                                                             N=158               42%   49%      4%       5%




MCO Y2K Follow-up                                       17                                     OEI-05-98-00591
                                                                              Yes     No      Not     Unknown
                                                                                           Applicable

25.	    What percent of your medical providers have demonstrated that their
        computer systems are Y2K compliant?
                                                          N=66                       Average=39%

26.	    Will your organization require that subcontractors demonstrate that
        their computer systems are Y2K compliant?
                                                             N=159            65%     22%      9%       4%

27.	    What percent of your subcontractors have demonstrated that their
        computer systems are Y2K compliant?
                                                           N=103                     Average=72%

28.	    Can your plan continue to provide services to patients if Medicare
        payments were delayed?
                                                              N=161           79%     10%      7%       4%

        If Yes, for how long? ________days/weeks/months
                                 (Please circle appropriate unit)
                                                            N=112                   Average=2 months


Please use the space below to list any of your Y2K concerns that were not covered in this
survey or anything that the Medicare program could do to improve Y2K outreach efforts.




MCO Y2K Follow-up                                      18                                     OEI-05-98-00591
                                       APPENDIX B
                    Agency Comments





MCO Y2K Follow-up                19        OEI-05-98-00591
MCO Y2K Follow-up   20   OEI-05-98-00591
